HHS/OIG, Audit - "Follow-Up Audit of the Medicaid Drug Rebate
Program in Louisiana," (A-06-07-00067)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-Up Audit of the Medicaid Drug
Rebate Program in Louisiana," (A-06-07-00067)
November 27, 2007
Complete Text of Report is available in PDF format (160 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to
determine whether the State agency had (1) implemented the recommendations made
in our previous audit of the Louisiana drug rebate program and (2) established
controls over collecting rebates on single source drugs administered by
physicians.
The State agency implemented the recommendation from our
prior audit related to reconciling the outstanding balance reported on the Form
CMS-64.9R to its accounts receivable records.  The State agency established
controls over collecting rebates on single source drugs administered by
physicians. Therefore, we did not make any recommendations.